BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief for National Association of Social
Workers as Amicus Curiae Supporting Petitioner in
20-1197, Eugene Milton Clemons II v. Jefferson S.
Dunn, Commissioner, Alabama Department of
Corrections, et al., was sent via Two Day Service to the
U.S. Supreme Court, and 3 copies were sent via Two
Day Service and e-mail to the following parties listed
below, this 31st day of March 2021:
Linda T. Coberly
Winston & Strawn, LLP
35 West Wacker Drive
Chicago, IL 60601
(312) 558-8768
lcoberly@winston.com

Counsel for Petitioner
Henry Mitchell Johnson
Alabama Atty General
501 Washington Ave
Montgomery, AL 36130
(334) 353-9095
henry .johnson@alabamaag.gov

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

John H. Fleming
Ann Grunewald Fort
Counsel of Record
Eversheds Sutherland
(US) LLP
999 Peachtree Street, NE
Suite 2300
Atlanta, GA 30309-3996
(404) 853-8000

AnnFort@eversheds-sutherland.us
Anne B. Camper
National Association of Social Workers
750 First St. NE
Suite 800
Washington, D.C. 20001
(800) 638-8799

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 31, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

,-rL/Uuh 3 LJ

cl~{].

Notary Public
[seal]

o--oa f

k~

